           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  TITLE II DISABILITY INSURANCE
    BENEFITS WITH WORKERS’
  COMPENSATION UNDERPAYMENT
    ERRORS EXCEEDING $70,000

      July 2003   A-04-02-21054




    MANAGEMENT
   ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                     SOCIAL SECURITY


MEMORANDUM

Date:   July 23, 2003                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Management Advisory Report: Title II Disability Insurance Benefits with Workers’
        Compensation Underpayment Errors Exceeding $70,000 (A-04-02-21054)


        OBJECTIVE
        Our objective was to assess the accuracy of Title II Disability Insurance (DI)
        underpayment errors exceeding $70,000 found during the Social Security
        Administration’s (SSA) clean up of the workers’ compensation (WC)/public disability
        benefit (PDB) offset workload.

        BACKGROUND

        Offset of Disability Insurance Benefits

        SSA administers the Old-Age, Survivors and Disability Insurance (OASDI) program
        under Title II of the Social Security Act, as amended (Act). Section 223 of the Act1
        requires that SSA provide monthly DI benefits to individuals who meet specific disability
        requirements.

        Workers who are injured on the job or retire because of a disability may qualify for
        Title II DI benefits. In addition to DI benefits, a disabled worker may also be eligible for
        benefits under Federal and State WC/PDB programs. When DI and WC/PDB benefits
        overlap, a disabled worker may receive more money from DI and WC/PDB benefits than
        they earned before they became disabled. Congress enacted the WC/PDB offset
        provision under section 224 of the Act,2 which requires that SSA offset DI benefits by
        any other disability benefit paid under any law or plan of the United States, a State, or a
        1
            42 U.S.C. § 423.
        2
            42 U.S.C. § 424a.
Page 2– The Commissioner

political subdivision. DI benefits are also affected by benefits authorized under the
Longshore and Harbor WC Act, Federal Employees’ Compensation Act, and various
other Federal and State WC programs.3 In each instance, SSA reduces the DI benefit,
unless the other disability payment originates from a State with a “reverse offset” law.
For States with a recognized “reverse offset” law, the WC/PDB benefit would be
reduced.

Clean up of Workers’ Compensation Workload

Since 1998, the Office of the Inspector General (OIG) has issued three reports on
Title II DI beneficiaries with WC offsets. These audits focused on the statutorily
required offset of DI benefits by amounts received from State WC programs.
Combined, these reports disclosed over $886 million in DI benefit payment errors. As a
result, SSA acknowledged problems with the WC workload and formed a work group
charged with significantly improving the accuracy of DI payments involving WC. This
improvement process included a clean up of previously computed WC offsets.

The clean-up process involved redeveloping and reverifying the WC/PDB offset
calculations of beneficiaries who met specified criteria. The clean-up effort included
112,230 cases, and SSA separated these into 2 populations. The first clean-up
population consisted of 61,581 DI cases whose offset began during the period 1966 to
1993 and were in current pay status as of November 1998. The second population
consisted of 50,649 DI cases whose offset began during the period 1994 to 1998 and
were in current pay status as of February 2000.

As of July 2002, SSA had cleaned up 105,958 (94 percent) of the 112,230 cases. In the
clean up, SSA found 57,217 cases in which beneficiaries were underpaid. Of those
underpayments, the Agency underpaid 542 cases $30,000 or more, and 20 of these
cases had underpayment errors that exceeded $70,000. The beneficiaries in these
20 cases received “underpayment” checks for back due DI benefits that totaled about
$1.6 million. It is important to note the significance of these 542 cases that SSA
identified with underpayment errors exceeding $30,000, since these cases underwent,
at a minimum, 2 reviews before the payment error was released.

Prior Studies

SSA’s Office of Quality Assurance and Performance Assessment (OQA) reviewed the
cleaned up cases when SSA had completed its review of about 40 percent of the
61,581 cases. OQA selected a variety of cases for examination, including those with an
overpayment, an underpayment, or no error. In April 2001, OQA reported SSA had a
29.1 percent error rate in those cases cleaned up. As such, OQA estimated that 17,895
of the 61,581 cleaned up cases contained errors totaling about $247.6 million.



3
 Longshore and Harbor Workers’ Compensation Act, 33 U.S.C § 901, et. seq.; Federal Employees
Compensation Act 5 U.S.C. § 8101, et. seq.
Page 3 – The Commissioner

SCOPE AND METHODOLOGY
We selected the 20 cleaned up WC cases that, as of July 2002, SSA determined had
underpayments exceeding $70,000. For each of the 20 cases, we:

•     Reviewed case folder documentation to determine how SSA developed the case
      during the clean-up process. We did not receive one case folder, but we obtained
      sufficient evidence to redevelop and recalculate the case without the folder.

•     Redeveloped the case and recalculated benefits due the individual from the month
      the beneficiary was entitled to DI benefits through the month of the WC clean-up
      action.

•     Independently obtained WC verification for cases that did not have updated
      documentation. Based on SSA's July 1999 clean-up instructions, WC verification
      should be updated for each case unless it has been reverified within the past
      12 months.

•     Reviewed the Master Beneficiary Record (MBR) to determine whether SSA
      accurately reflected the WC status.

•     Evaluated existing controls, policies and procedures related to the offset of DI
      payments.

We did not audit SSA’s systems, the methodology used to extract the WC clean-up
population test, or the completeness of 112,230 WC cases. We performed the review
from April through December 2002, in Atlanta, Georgia, and Baltimore, Maryland, in
accordance with Quality Standards for Inspections issued by the President’s Council on
Integrity and Efficiency. The SSA entities reviewed were the Offices of Disability
Operations and Disability as well as Income Security Programs.

RESULTS OF REVIEW

Nineteen of the 20 (95 percent) WC underpayment cases we reviewed had a dollar
and/or processing error. For 12 of the 19 cases, the errors changed the amount of DI
benefits the beneficiaries should have received as a result of the clean-up process.4
These errors occurred because claims authorizers did not reverify and/or redevelop the
WC cases, as required by SSA policy,5 or they made simple math errors.




4
    Six of the 12 cases also had processing errors that did not affect the dollar error.
5
    Program Operations Manual System (POMS), DI 52001.150 and DI 52001.155.
Page 4 – The Commissioner

                                                                              The other seven cases
                   Errors in Cases Reviewed                                   had processing errors
                                                                              that did not impact the
                                                                              past due DI benefits
     100%
                                                                              paid to the
                                                      20 WC Cases             beneficiaries. These
      80%          100                                                        errors occurred
                                                      Reviewed
                                                      12 Cases with Dollar    because SSA did not
      60%                                             Errors                  code the MBR
                           60                         7 Cases with            accurately to reflect the
      40%                                             Processing Errors       correct WC/PDB offset
                                                      1 Case with No Error    status and/or WC/PDB
      20%                        35                                           was not reverified per
                                                                              SSA’s policy. Such
          0%                             5                                    errors can affect the
                                                                              reporting accuracy of
DI cases involving WC offset and lead to potential dollar errors.

PROCESSING ERRORS THAT IMPACTED PAYMENT ACCURACY

Twelve of the 20 cases we reviewed had errors that changed the amount of benefits
SSA paid to the beneficiaries as a result of the cleanup. The dollar errors on these
12 cases totaled $100,399.6 However, about 82 percent of the dollar errors we
identified were in one case that contained an $82,802 overpayment error. SSA
subsequently waived this overpayment error. We discussed results of our case reviews
with SSA staff, and they generally concurred that errors existed in the 12 cases. Details
of these cases are presented in Appendix A.

Lack of Reverification and Calculation Errors

Errors occurred in five cases because SSA did not reverify WC or redevelop the WC
offset correctly. 7 If these cases had been properly verified and calculated, benefits paid
to the beneficiaries would have changed by $88,623, as explained below.

      •    In one case, the beneficiary’s WC verification was last updated in November
           1992. The claims authorizer who performed the clean up used this outdated
           information and determined the beneficiary was due $78,644 in DI benefits.
           Based on our WC reverification and calculations, the primary beneficiary was
           only underpaid $41,635, resulting in a $37,009 overpayment during the clean-up
           process. Furthermore, two auxiliaries that SSA determined did not have any
           dollar error we determined were overpaid $45,793. As a result, SSA overpaid
           the primary beneficiary and auxiliaries $82,802 ($37,009 + $45,793). SSA

6
 The dollar error we identified represented about 6 percent of the $1.64 million in dollar errors SSA
originally identified during the clean-up of the 20 cases.
7
    See Appendix A, Type of Error A.
Page 5 – The Commissioner

          notified the beneficiaries of the overpayment errors, and they in turn initiated a
          waiver request of the overpayment. In February 2003, SSA determined the
          beneficiary was without fault in causing the overpayment and the recovery of the
          overpayment would be against equity and good conscience. Therefore, SSA
          waived the $82,802 overpayment.

      •   For two cases, SSA did not reverify and redevelop the WC allegation from the
          month of entitlement to the date of the clean-up action. Based on our
          reverification and recalculation, the two beneficiaries were due an additional
          $2,217 and $2,455, respectively. SSA released the $2,217 underpayment due
          one beneficiary. However, SSA has not released the $2,455 due the other
          beneficiary until a complete case review is performed, although it concurred a
          dollar error existed.

      •   In the remaining two cases, SSA miscalculated the WC offset, even though WC
          data had been reverified. This error resulted in underpayments to two
          beneficiaries of $384 and $765, respectively. SSA resolved the underpayments
          by releasing payment to the beneficiaries.8

Individuals Due Additional Disability Insurance Benefits or Fees

In two cases, we found errors in the processing of payments for WC clean-up
underpayments. 9 These errors resulted in payment errors of $9,219, as explained
below.

      •   In one case, the auxiliary did not receive an $5,429 underpayment. Instead, SSA
          paid the primary beneficiary who had been the auxiliary’s representative payee
          when the auxiliary was under the age of 18. It is SSA’s policy to consider an
          adult beneficiary/auxiliary capable of managing the entitled benefits unless there
          is evidence to the contrary.10 SSA did not document either the MBR or the case
          file with any indication of a capability issue. SSA should have paid the adult
          auxiliary $5,429 instead of the primary beneficiary. To resolve this payment
          error, SSA obtained a signed statement from both the primary and auxiliary
          beneficiaries indicating that the $5,429 was used for the auxiliary’s benefit.
          Resolution of this case avoided any net dollar affect on the Agency. However,
          this type of error may not always be resolvable without financial impact to SSA.




8
    See the $3,790 attorney fee payment discussed at page 6 of this report.
9
    See Appendix A, Type of Error B.
10
     POMS, GN 00502.011 (A).
Page 6 – The Commissioner


      •   In the remaining case, the attorney was underpaid $3,790. We determined the
          attorney fee payment was based on the beneficiary’s past due benefits. When
          the fee agreement meets the statutory requirements,11 SSA is to withhold the fee
          from the beneficiary’s past due benefits and authorize payment of the fee only
          after WC is verified.12 Initially, SSA paid the attorney $210. During the WC clean
          up, SSA recalculated the WC offset and determined the beneficiary was
          underpaid $81,519. As a result, the attorney was due a total of $4,000.
          However, SSA paid the entire $81,519 to the beneficiary and did not adjust the
          attorney fee. Therefore, the attorney was underpaid and the beneficiary was
          overpaid $3,790. SSA subsequently took the necessary action to notify and
          correct this payment error. As such, the attorney was paid $1,398 from the
          beneficiary’s underpayment.13 SSA instructed the attorney to collect the
          remaining balance of $2,392 from the beneficiary.

Payments for Additional Disability Insurance Benefits were not Reconciled

Payment errors occurred on six cases because of simple math errors by claims and
benefit authorizers totaling $2,557. 14 For example, in our analysis of one case, we
found that the authorizer properly calculated the individual monthly DI benefits.
However, the authorizer did not total the monthly benefit amounts correctly, which
resulted in a beneficiary overpayment of $396. These math errors occurred because
SSA did not implement a consistent practice to reconcile the underpayment due the
beneficiaries by comparing what had been paid to what should have been paid. SSA
has initiated corrective actions on all but one case because this case has an
overpayment issue that is unrelated to the WC clean-up action. As of February 2003,
SSA had not resolved this case.




11
     Section 206(a)(2)(A) of the Social Security Act, as amended; 42 U.S.C. 406(a)(2)(A).
12
     POMS, GN 03920.001 and GN 03940.036 (A).
13
  The initial underpayment reported on this case was $384 as of the clean-up date. The underpayment
continued to increase and was $1,398 at the time SSA took its corrective action.
14
     See Appendix A, Type of Error C.
Page 7 – The Commissioner

PROCESSING ERRORS THAT DID NOT IMPACT PAYMENT ACCURACY

Thirteen cases we reviewed had processing errors that did not impact payment
accuracy.15

•     Six cases had data integrity errors on the MBR because SSA did not report the
      offset status accurately.

•     Two cases did not have                      Cases by Types of Error
      WC reverified per policy.                                           6 Cases w ith
      For example, on one                                                  Dollar Error
      case, WC was reverified                                             6 Cases w ith
      via a telephone contact.             1 Case w ith                      Dollar &
      This practice was not in               No Error                      Processing
                                                        19 Cases w ith        Error
      compliance with SSA’s                                 Error         7 Cases w ith
                     16
      written policy. We                                                   Processing
      reverified per SSA’s policy                                              Error

      and determined that the
      WC verification did not
      agree with the reported telephone discussion. However, even with this error, SSA
      paid the beneficiary correctly.

•     Five cases had both a data integrity error on the MBR and a lack of WC
      reverification. For example, in one case, the WC verification had not been updated
      since 1982. We obtained updated WC verification that supported the cleaned up
      WC offset calculation. However, the MBR was incorrectly coded because it did not
      show the beneficiary in a reverse offset status.

CONCLUSION AND RECOMMENDATIONS
We are encouraged by SSA’s effort and dedication to identify and correct cases with
WC/PDB offset errors and improve payment accuracy. However, reviews by OIG and
OQA continue to disclose errors in the cleaned up cases even though SSA provided
additional guidelines. Errors occur because WC/PDB is a highly complicated process
that requires extensive knowledge to process and review. As such, SSA should
perform a study to determine the accuracy of the WC clean up, assess the results, and
determine whether further actions are needed to ensure customers receive the
payments to which they are entitled. We believe this study should focus first on the
cases OQA identified with underpayment errors over $30,000.




15
  The 13 cases include 6 of the payment cases previously reported and 7 additional cases that only had
processing errors.
16
     POMS, DI 52001.150 and 155.
Page 8 – The Commissioner

We recommend that SSA:

1. Complete a study on the accuracy of the WC clean-up process for the 522 cases
   OQA identified with underpayment errors between $30,000 and $70,000, and take
   any necessary actions to address the problems identified. If the study discloses
   significant dollar errors, SSA should consider expanding the study to the entire
   population of cleaned-up cases.

2. Continue to take corrective action on the cases with errors we identified that were
   not already corrected as a result of our review.

3. Re-emphasize the importance of reverifying WC/PDB verification to claims
   authorizers when WC has not been updated within the 12 months and ensure that
   WC verification meets the standards established per the Agency’s policy.

4. Re-emphasize to claims authorizers and benefit authorizers to reconcile the
   underpayment due the beneficiaries based on payment history to what should have
   been paid.

5. Remind claims authorizers and benefit authorizers to accurately code the MBR to
   ensure WC data integrity.

AGENCY COMMENTS
In response to our draft report, SSA stated it was committed to improving the quality of
WC case work. As part of this commitment, SSA stated it has taken corrective actions
that address our concerns. The full text of SSA’s comments is included in Appendix B.

OIG RESPONSE
We acknowledge the commitment SSA has made to improve the accuracy of WC case
work. However, our review disclosed that some case work errors continued to occur
after the implementation of the Agency’s corrective actions. At a future date, we may
consider performing a follow-up review to ensure the corrective actions taken by SSA
resulted in improvements in the accuracy of WC case work.




                                            James G. Huse, Jr.


Attachment
                                    Appendices
APPENDIX A – Range of Workers’ Compensation Dollar Errors

APPENDIX B – Agency Comments

APPENDIX C – OIG Contacts and Staff Acknowledgment
                                                                                                Appendix A

Range of Workers’ Compensation Dollar Errors

          Workers’      Total Case
Cases   Compensation      Dollar   Overpayment          Underpayment           Incorrect    Attorney
        Cleanup Error     Error                                               Beneficiary   Fee Not
          Reported                                                                Paid        Paid
   1      $ 78,644      $ 82,802        $82,802A            $      0            $     0     $     0
   2        71,142         2,455              0               2,455A                  0           0
   3        85,351         2,217              0               2,217A                  0           0
   4        95,205           765              0                 765A                  0           0
   5        81,519         4,174              0                 384A                  0       3,790B
   6        81,741         5,429              0                   0               5,429B          0
   7        80,065           560             25C                535C                  0           0
   8        81,013           802            401C                401C                  0           0
   9        77,732           396            396C                  0                   0           0
  10        72,243           328            328C                  0                   0           0
  11        80,087           321               0                321C                  0           0
  12        74,089           150            150C                  0                   0           0
TOTAL     $958,831      $100,399        $84,102              $7,078              $5,429      $3,790

                         KEY   Type of Error
                          A    Lack of Reverification and Calculation Errors = $88,623
                          B    Individuals Due Additional Disability Insurance Benefits
                               $9,219
                           C   Payments for Additional Disability Insurance Benefits were
                               not Reconciled = $2,557
                  Appendix B

Agency Comments
                                      SOCIAL SECURITY


MEMORANDUM                                                                         31178-24-781


Date:     June 19, 2003                                                      Refer To: S1J-3

To:       James G. Huse, Jr.
          Inspector General

From:     Larry Dye /s/
          Chief of Staff

Subject   Office of the Inspector General Draft Report, “Title II Disability Insurance Benefits with
:         Workers’ Compensation Underpayment Errors Exceeding $70,000” (A-04-02-21054)—
          INFORMATION


          We appreciate OIG's efforts in conducting this review. Our comments on the
          recommendations are attached.

          Please let us know if we can be of further assistance. Staff questions can be referred to
          Janet Carbonara on extension 53568.

          Attachment:
          SSA Response




                                                     B-1
    COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
    REPORT, “TITLE II DISABILITY INSURANCE BENEFITS WITH WORKERS’
       COMPENSATION UNDERPAYMENT ERRORS EXCEEDING $70,000”
                                          A-04-02-21054

We appreciate the opportunity to comment on this draft report. The 20 cases selected by OIG for
this review represented aged cases with retroactivity extending back into the 1980s and 1990s.
As OIG stated, workers’ compensation/public disability benefit (WC/PDB) offset is a very
complicated process and is not typical casework. All 20 cases required manual processing by
several technicians due to their age, size and complexity. Overall, SSA processed 112,000
cleanup cases with 94 percent accuracy. The 94 percent payment accuracy represented all
charged errors, including those unrelated to workers’ compensation.

In 1999, SSA made a commitment to improve the quality of WC casework. SSA has met all its
goals and commitments, and is on schedule to achieve others including:

•   SSA committed to re-review all cases in which benefits were reduced (or "offset") because of
    WC to ensure accurate payment. SSA met the commitment and completed 112,000 cases by
    the end of fiscal year (FY) 2002.

•   SSAs committed to re-review 205,000 cases no longer being offset but having contained an
    offset in the past. SSA began this phase, as planned, in FY 2003, immediately following the
    completion the initiative described in the previous bullet. SSA plans to complete the current
    initiative at a rate of 40,000 to 41,000 cases per year for a 5-year period. Current casework is
    on schedule.

•   SSA retrained all claims representatives, claims authorizers and benefit authorizers to ensure
    increased accuracy in offset cases. National training was conducted and completed on
    schedule.

•   SSA revised the entire WC chapter in the Program Operations Manual System (POMS).
    This update was a significant achievement as it required 2 years of work and involved a
    collaborative effort between program and operating personnel.

•   In 2001, SSA implemented a revised process whereby technicians re-verify WC information
    every 3 years. This change ensures that cleanup cases remain up-to-date. In June 2003, SSA
    selected 43,000 cases for re-verification of WC payments.

•   Two years ago, SSA redesigned payment software to improve accuracy and processing time
    by giving field office employees the ability to enter WC information.




                                                B-2
•   2001 The Office of the Quality Assurance and Performance Assessment’s Fiscal Year (FY)
    (Stewardship) Report, dated September 27, 2002, indicates that WC errors have decreased
    dramatically in the past 5 years. As indicated in the Stewardship report, for FY 1998 the
    projection was $1.3 billion in WC underpayment errors, and for FY 2001 the projection
    diminished to less than $139 million.
Recommendation 1

Complete a study on the accuracy of the Workers’ Compensation (WC) clean-up process for the
522 cases identified with underpayment errors between $30,000 and $70,000, and take any
necessary actions to address the problems identified. If the study discloses significant dollar
errors, SSA should consider expanding the study to the entire population of clean-up cases.

Comment

Over the years, WC cases have been reviewed extensively by OIG and SSA. All parties
acknowledge that WC casework is complicated. We do not believe additional studies will
disclose new information about WC cases. As mentioned above, SSA implemented key
improvements in 2001 to ensure that WC information remains up-to-date.

SSA completed the necessary clean-up actions for the remaining 522 WC cases during the FY
2002 re-review of 112,000 cases in which benefits were reduced (or “offset”) because of WC.
Recommendation 2

Continue to take corrective action on the cases with errors OIG identified that were not already
corrected as a result of the review.

Comment

The corrective action for all of the cases from this review was completed prior to the issuance of
this report.

Recommendation 3

Re-emphasize the importance of re-verifying WC/public disability benefit (PDB) verification to
claims authorizers when WC has not been updated within 12 months and ensure that WC
verification meets the standards established per the Agency’s policy.




                                               B-3
Comment

Prior to the release of this report, SSA has re-emphasized the importance or re-verifying
WC/PDB benefits, including revising the WC chapter in POMS. SSA has accomplished the
review of the 112,000 identified WC cases, in which the primary focus was to verify WC.
Claims authorizers understand the importance of verifying WC correctly and were involved in
the cleanup operation.

Recommendation 4

Re-emphasize to claims authorizers and benefit authorizers to reconcile the underpayment due
the beneficiaries based on payment history to what should have been paid.

Comment

Due to the complexity of WC/PDB cases, and prior to this report, SSA developed an automated
process to reconcile underpayments due the beneficiary. The Manual Adjustment Credit and
Award Data Entry (MACADE) can process almost all offset situations. Again, SSA has already
revised the WC section in POMS, and has conducted training for all the benefit authorizers on
manually prepared offsets; the claims authorizer is not part of this function.

Recommendation 5

Remind claims authorizers and benefit authorizers to accurately code the Master Benefit Record
(MBR) to ensure WC data integrity.

Comment

Prior to the release of the report the Agency prepared and released the current POMS
instructions that explain the importance of correct coding. As stated above, the entire WC
chapter in POMS has been revised and updated and all claim representatives, claim authorizers
and benefit authorizers were re-trained, including the instructions for correct coding.




                                             B-4
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director (816) 936-5591

   Frank Nagy, Deputy Director (404) 562-5552

Staff Acknowledgments

In addition to those named above:

   Teaketa Turner, Auditor

   Valerie Ledbetter, Auditor

   Kimberly Beauchamp, Writer/Editor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-04-02-21054.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General

                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                   Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
